No. 21-290

 

 

In THE

Supreme Court of the United States

JOSEPH CHAPO, SHERRY CHAPO, DEPUTY BIG SHOT LLC,

Petitioners,
v.

JEFFERSON COUNTY PLAN COMMISSION,
Respondent.

On Petition for Writ of Certiorari
From the Supreme Court of Indiana

PETITIONERS’ REPLY TO THE
BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,870 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 6, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
